No. 20-828
IN THE

Supreme Court of the United States
FEDERAL BUREAU OF INVESTIGATION, ET AL.,
Petitioners,
v.
YASSIR FAZAGA, ET AL.,
Respondents.

ON WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT

UNOPPOSED JOINT MOTION OF RESPONDENTS TIDWELL, WALLS,
ALLEN, ARMSTRONG, AND ROSE FOR DIVIDED ARGUMENT
AND FOR ENLARGEMENT OF TIME FOR ARGUMENT

Pursuant to this Court’s Rules 21, 28.3, and 28.4, respondents Tidwell, Walls,
Allen, Armstrong, and Rose (the “Agent Respondents”) jointly and respectfully move
that the time allotted for oral argument in this case be enlarged to 80 minutes and that
the Agent Respondents be allowed 10 minutes of argument time. Petitioners take no
position on this motion. Respondents Yassir Fazaga, Ali Uddin Malik, and Yasser
Abdelrahim (“Plaintiff Respondents”) take no position on this motion.
1.

Plaintiff Respondents brought this action against petitioners the United

States, the Federal Bureau of Investigation (“FBI”), and two official-capacity
defendants. Plaintiff Respondents also asserted claims against the Agent Respondents,
who are FBI agents sued in their individual capacities. The complaint alleges that,

1

during a counterterrorism investigation in Southern California, petitioners and the
Agent Respondents targeted Plaintiff Respondents for electronic surveillance because
of their religion.

The complaint asserts, among other claims, that by doing so,

petitioners and the Agent Respondents violated Plaintiff Respondents’ rights under the
Establishment and Free Exercise Clauses of the First Amendment and the Equal
Protection Clause of the Fifth Amendment. The complaint seeks compensatory and
punitive damages against the Agent Respondents in their personal capacities.
2.

The government invoked the state-secrets privilege over information

concerning whether any particular individual was the subject of an FBI
counterterrorism investigation, the reasons for any such investigation, and sources and
methods used. The district court dismissed the First Amendment and Equal Protection
claims, holding that those claims could not be litigated without risking the disclosure of
state secrets and that the government’s assertion of the privilege precluded the
defendants from defending themselves fully and effectively. Pet. App. 172a-178a, 180a.
3.

The U.S. Court of Appeals for the Ninth Circuit reversed the state-

secrets dismissal determination. The court concluded that, where they apply, the in
camera, ex parte procedures set forth in the Foreign Intelligence Surveillance Act
(“FISA”), 50 U.S.C. § 1806(f), provide the “exclusive procedure for evaluating evidence
that threatens national security in the context of electronic surveillance-related
determinations” and “override[] … the state secrets evidentiary dismissal option.” Pet.
App. 50a. The court of appeals determined that FISA “speak[s] … directly to the
question otherwise answered by the dismissal remedy sometimes required by” the
state-secrets privilege, because it supplies an “alternative mechanism for the

2

consideration of electronic state secrets evidence” that eliminates the need for
dismissal. Pet. App. 49a, 51a. The court further concluded that FISA’s procedures
apply in this case because the government seeks to use evidence allegedly derived from
electronic surveillance as a basis to dismiss the action. Pet. App. 57a-58a. The court of
appeals accordingly directed that the district court “should, using § 1806(f)’s ex parte
and in camera procedures, review any materials relating to the surveillance as may be
necessary, including the evidence over which the Attorney General asserted the state
secrets privilege, to determine whether the electronic surveillance was lawfully
authorized and conducted”—that is, whether the surveillance “violated any of the
constitutional and statutory provisions asserted by Plaintiffs in their complaint,”
including the First Amendment and the Equal Protection Clause. Pet. App. 92a-93a
(quotation marks and citation omitted).
4.

Petitioners sought this Court’s review of whether FISA “displaces the

state-secrets privilege and authorizes a district court to resolve, in camera and ex
parte, the merits of a lawsuit challenging the lawfulness of government surveillance by
considering the privileged evidence.” Pet. i. Although the Agent Respondents are
respondents by operation of this Court’s Rule 12.6, they are aligned with petitioners
and filed briefs in support of the petition for certiorari. This Court granted certiorari,
and the case is set for argument on November 8, 2021.
5.

The Agent Respondents, who face the prospect of damages and liability in

their personal capacities, have been represented by separate counsel from petitioners
throughout this litigation and continue to be separately represented. Counsel for the
Agent Respondents have filed briefs and participated in oral argument throughout the

3

proceedings in the district court and court of appeals and have filed separate briefs on
the merits in this Court.1
6.

The Agent Respondents have a substantial interest in the question

presented that is distinct from petitioners’ interests in multiple respects, and they have
offered distinct arguments in their briefs to this Court. First, the Agent Respondents
have argued that an assertion of the state-secrets privilege and the availability of the
state-secrets dismissal remedy have unique implications for private defendants sued
alongside the government.

Tidwell & Walls Br. 12, 14-17.

While the Agent

Respondents agree with petitioners that a dismissal remedy should be available in
certain cases where the government has asserted the privilege, the Agent Respondents
assert a distinct basis for that view. In particular, the Agent Respondents rely on their
private status as individual-capacity defendants who have no control over the
government’s decisions whether to assert the privilege and whether to make relevant
information available, but may be deprived as a result of those decisions of their ability
to access and introduce evidence and information relevant to their defense. The Agent
Respondents have thus emphasized a distinctive interest in dismissal that stems from
the unfairness that results if the government chooses to assert the privilege in a
manner that precludes a private defendant—who faces the prospect of personal liability
and damages—from fully and fairly defending him or herself.

See, e.g., General

Dynamics Corp. v. United States, 563 U.S. 478, 486-487 (2011).

1

Although Agent Respondents Tidwell and Walls are represented separately from
Agent Respondents Allen, Armstrong, and Rose, they bring this motion jointly for
leave to allow one attorney to participate in oral argument on behalf of all the Agent
Respondents.
4

7.

Second, petitioners and the Agent Respondents have asserted distinct

constitutional arguments against the court of appeals’ interpretation of FISA. Whereas
petitioners have argued that the court of appeals’ interpretation trenches on the
constitutional prerogatives of the Executive to prevent the disclosure of information
that would jeopardize national security, Pet. Br. 42-47, the Agent Respondents—
reflecting their distinct perspective as individual-capacity defendants—have argued
that an interpretation of FISA that would permit or require adjudication of their
personal liability through in camera, ex parte proceedings would raise grave
constitutional questions under the Seventh Amendment and Due Process Clause that
counsel against the court of appeals’ interpretation. See Tidwell & Walls Br. 21-32;
Allen, Armstrong, Rose Br. 9-17. Given these distinct arguments and perspectives, the
Agent Respondents’ participation in oral argument could materially assist the Court in
its consideration of this case.
8.

This Court has regularly granted motions for divided argument when

parties with different interests appear on the same side of a case, particularly when
those parties represent the distinct perspectives of government officials and private
parties. See, e.g., Brnovich v. Democratic Nat’l Comm., 141 S. Ct. 1263 (2021) (mem.);
Trump v. New York, 141 S. Ct. 870 (2020) (mem.); Fulton v. City of Philadelphia, 141 S.
Ct. 230 (2020) (mem.); Department of Com. v. New York, 139 S. Ct. 1543 (2019) (mem.);
American Legion v. American Humanist Ass’n, 139 S. Ct. 951 (2019) (mem.); Janus v.
American Fed’n of State, Cnty., & Mun. Emps., Council 31, 138 S. Ct. 974 (2018)
(mem.); Masterpiece Cakeshop, Ltd., v. Colorado Civil Rights Comm’n, 138 S. Ct. 466
(2017) (mem.).

5

9.

An enlargement of time for oral argument to a total of 80 minutes is

warranted to accommodate 10 minutes of time for the Agent Respondents and a
corresponding increase of time for Plaintiff Respondents, while ensuring that the Court
receives a full presentation of the important issues raised in this case.

Plaintiff

Respondents were previously granted leave to file a brief on the merits in excess of the
word limit.
For the foregoing reasons, the Agent Respondents jointly and respectfully
request that that the time allotted for oral argument in this case be enlarged to 80
minutes and that the Agent Respondents be allowed 10 minutes of argument time.
Respectfully submitted.
ALEXANDER H. COTE
Counsel of Record
WINSTON & STRAWN LLP
333 S. Grand Avenue
Los Angeles, CA 90071
(213) 615-1993
acote@winston.com
Counsel for Respondents Allen,
Armstrong, and Rose

CATHERINE M.A. CARROLL
Counsel of Record
HOWARD M. SHAPIRO
JUSTIN M. BAXENBERG
ALLISON M. SCHULTZ
WILMER CUTLER PICKERING
HALE AND DORR LLP
1875 Pennsylvania Avenue NW
Washington, DC 20006
(202) 663-6000
catherine.carroll@wilmerhale.com

KATIE MORAN
WILMER CUTLER PICKERING
HALE AND DORR LLP
350 S. Grand Avenue, Suite 2400
Los Angeles, CA 90071
Counsel for Respondents Tidwell and Walls
SEPTEMBER 2021

6

CERTIFICATE OF SERVICE
I, Catherine M.A. Carroll, a member of the bar of this Court, certify that on this
28th day of September, 2021, I caused all parties requiring service in this matter to be
served with a copy of the foregoing by email and third-party commercial carrier to the
addresses below:
Counsel for Petitioners
BRIAN H. FLETCHER
Acting Solicitor General
UNITED STATES DEPARTMENT OF JUSTICE
950 Pennsylvania Avenue, NW
Washington, DC 20530-0001
SupremeCtBriefs@usdoj.gov
(202) 514-2217
Counsel for Respondents Yassir Fazaga, Ali Uddin Malik,
and Yasser Abdelrahim
AHILAN ARULANANTHAM
UCLA SCHOOL OF LAW
385 Charles E. Young Drive East
Los Angeles, CA 90095
arulanantham@law.ucla.edu
(310) 825-1029
Counsel for Respondents Paul Allen, Kevin Armstrong, and Pat Rose
ALEXANDER H. COTE
WINSTON & STRAWN LLP
333 S. Grand Avenue
Los Angeles, CA 90071
acote@winston.com
(213) 615-1993

__________________________________________
CATHERINE M.A. CARROLL

